July 2, 2010

JOSEPH D. MOELLER
MANAGER, REGULATORY REPORTING AND COST ANALYSIS

VIRGINIA J. MAYES
MANAGER, SPECIAL STUDIES

SUBJECT: Audit Report – First-Class and Standard Mail Workshare Discounts
         (Report Number MS-AR-10-003)

This report presents the results of our self-initiated audit of First-Class and Standard
Mail Workshare Discounts (Project Number 09RG019MS000). Our objective was to
determine whether the U.S. Postal Service bases First-Class Mail® (FCM) and
Standard Mail® workshare discounts for presort letters on current cost inputs. This audit
was limited to examining the inputs to the letter cost models. We have a separate
ongoing review (Project Number 10RG015MS000) of workshare discounts exceeding
avoided costs. This audit addresses financial risk. See Appendix A for additional
information about this audit.

The Postal Accountability and Enhancement Act (the Postal Act) defines workshare
discounts as rate discounts provided to mailers for presorting, prebarcoding, handling,
or transporting mail—that is, discounts for performing work the Postal Service would
otherwise have to perform. Cost inputs are data that Postal Service cost models use to
estimate the cost of certain mail processing activities. When mailers perform workshare
activities, the Postal Service avoids certain costs it would otherwise incur. The Postal
Service uses cost models to develop workshare cost-avoidance estimates.1 According
to the Postal Act, workshare discounts may not exceed costs the Postal Service avoids
as a result of workshare activities except under specific circumstances. FCM and
Standard Mail workshare discounts accounted for $4.2 billion and $8.3 billion
respectively, or over 83 percent of the $15.0 billion total workshare discounts in fiscal
year (FY) 2008.2




1
  This report concerns the First-Class Letters and Standard Regular Letters cost models. See Appendix C for a list of
cost models.
2
  Economic Analysis of the Postal Service's Workshare Discounts, NGI Solutions LLC, October 14, 2009.
First-Class and Standard Mail Presort Letter                                                            MS-AR-10-003
 Workshare Discounts


Conclusion

The Postal Service generally bases workshare discounts for FCM and Standard Mail
presort letters on current cost inputs—either annually updated data (such as that
obtained from the Management Operating Data System (MODS)3 and Web End of Run4
databases) or data the Postal Service’s Special Studies group collected during fieldwork
conducted in FY 2008. However, the Postal Service has not updated some of the inputs
since FY 1995, and they may not be representative of current operating conditions.

The Postal Service should prioritize updating inputs in the FCM and Standard Mail
Letter cost models. Cost models evolve as operations, equipment, and products change
and updating the inputs could help the Postal Service develop more accurate
worksharing cost-avoidance estimates, which would aid in setting workshare discounts.

Workshare Discounts

The presort letter cost models for FCM and Standard Mail contain inputs that may not
be representative of current operating conditions. Of the 288 inputs the models use, 13
were last updated prior to FY 2008. Six of those 13 have not been updated since FY
1995, five more were last updated in FY 2000, and the other two were updated in FY
2005. See Appendix D.

To the extent the inputs are not representative of current operating conditions, cost-
avoidance estimates derived from cost models may be inaccurate.5 To demonstrate
how changes to the inputs can affect cost-avoidance estimates, we performed a
sensitivity analysis on each of the 13 inputs last updated prior to FY 2008. We varied
each input by 5 percent and estimated that the effect on avoided costs ranged from no
effect for certain inputs to approximately $2.1 million for the Post Office Box Destination
input. This 5 percent change in one input, holding all other inputs equal, can affect cost-
avoidance estimates by $4.2 million over a 2-year period. See Appendix E for details on
this estimate. This potential cost mis-estimation could affect the soundness of Postal
Service cost and workshare estimates.

Postal Service officials stated they have not updated some inputs because there have
been no significant operational changes to either equipment or processes that would
necessitate an update. Officials also stated that neither mailer behavior nor mail
characteristics for FCM and Standard Mail have shifted significantly enough to indicate

3
  MODS reports data on workload, workhours, and machine utilization. The data is used for planning mail processing
activities, projecting workhours and mail volumes, and measuring productivity.
4
  Web End of Run collects data from all the automated mail processing equipment and generates a set of standard
reports which informs operating decisions. It indicates which machines were running, what sort plans those machines
were running, how many pieces they handled on that sort run, and what bins the mailpieces were dropped into as a
result of the sortation.
5
  Cost-avoidance estimates are calculated by subtracting the unit processing cost of any given mail product from the
unit processing cost of a specified mail product with similar characteristics that is not workshared or is workshared to
a lesser extent.




                                                           2
First-Class and Standard Mail Presort Letter                                                           MS-AR-10-003
 Workshare Discounts


that changes would be significant, except as noted below. In addition, management
stated that updating some inputs would require costly and disruptive field visits not
warranted by the marginal data change that might result. Finally, officials noted that the
small volume associated with some of the inputs, such as non-machinable presort mail
that is bundled, would make meaningful measurements difficult. See Appendix B for our
detailed analysis of this topic.

Letters Processed as Flats

Shape-based pricing for FCM went into effect in 2007, accompanied by an increase in
postage rates for flats.6 Some mailers, in order to obtain the more favorable letter rates,
reconfigured their flats into so-called slim-jims that would fit within the size limits for
letters.7

Postal Service officials recognize that some slim-jims may not be handled cleanly in the
letter processing stream; therefore, they are processed as flats. This means that mailers
sometimes pay letter rates for pieces processed as flats. Although officials are aware of
the problem, the cost models do not account for it. Furthermore, officials have not
estimated either the volume of slim-jims or the percentage being processed as flats.
Further study is required to determine how slim-jims affect processing costs and cost-
avoidance estimates.8

We recommend the manager, Regulatory Reporting and Cost Analysis, direct the
manager, Special Studies, to:

1. Determine the feasibility of updating the 13 First-Class Mail and Standard Mail cost
   inputs last updated prior to FY 2008 and create a prioritized list for completing the
   updates.

2. Undertake a study to identify needed changes to the letter cost models due to the
   volume of slim-jims and the percentage processed as flats.




6
   Under shape-based pricing, both the weight and shape of a mailpiece affect its price. Shape-based pricing
recognizes that each shape of mailpiece has substantially different handling costs. This pricing approach encourages
efficiency in that customers can reduce their postage by using a shape that is less costly for the Postal Service to
handle.
7
   Slim-jims are catalogs or similar material that previously would have entered the mailstream as flats, but now are
cropped on two sides so that they fit within the size limits for letters. They are often booklet-type pieces, usually
stapled in the center instead of bound, because the binding process would make them too thick to meet the maximum
thickness for a letter. Slim-jims are usually tabbed or otherwise required to have all four edges closed so they do not
flip open during processing.
8
   Processing costs are estimated by means of the cost models and rely on various data inputs, including volume by
product. Any change to an input—such as volume that should have been included in one product, but was instead
included in another—will have an effect on the models’ output. Since the Postal Service does not know the volume of
slim-jims being processed as flats when mailers paid letter prices, the letter processing costs estimated in the FCM
and Standard Mail models may be inaccurate.




                                                          3
First-Class and Standard Mail Presort Letter                                    MS-AR-10-003
 Workshare Discounts


Management’s Comments

Management agreed with our finding that the Postal Service generally bases workshare
discounts for FCM and Standard Mail presort letters on current cost inputs. However,
management noted that there are 13 inputs they have not updated since 2008, not 14
as initially stated in the report. Management also agreed with our assessment that cost
models change as operating environments change, and that, to the extent the inputs are
not representative of current operating conditions, cost-avoidance estimates derived
from cost models may be inaccurate.

Management agreed with recommendation 1 to determine the feasibility of updating the
cost inputs in question and create a prioritized list for completing the updates. However,
management noted that the reported $2.1 million effect on cost-avoidance estimates we
determined by varying the inputs by 5 percent represents 0.05 percent of the total value
of workshare cost-avoidance from FCM that we reported. Management stated that such
a degree of accuracy would be remarkable in most estimation contexts. Management
also reiterated that the Postal Service is awaiting guidance from the Postal Regulatory
Commission (PRC) on prioritizing study and data updates. Therefore, it may not be
appropriate for the Postal Service to act unilaterally in the matter.

Management did not agree with recommendation 2 to undertake a study to identify
needed changes to the letter cost models due to the volume of slim-jims and the
percentage of those processed as flats. Management noted the difficulty of counting
slim-jims in the absence of a standard definition that mutually excludes them from
letters and flats and a rate element requiring separate volume reporting. However,
management stated it would continue to work with other analysts and functional areas in
clarifying the slim-jim issue.

Management also disagreed somewhat with the representation that mail processing
cost models do not account for the fact that slim-jim mailers sometimes pay letter rates
for pieces processed as flats. Management stated they include the costs, but what is not
present in the cost models is an explicit mapping of letters into flat-sorting operations
and a quantification of the pieces processed as flats but for which mailers paid letter
rates. That information would be necessary to populate such a mapping.

Management also disagreed that the $4.2 million impact we reported is a misallocation
of costs (as we initially stated in the report) since the letter cost models do not classify
costs as volume-variable, product-specific, or institutional. Management stated that the
impact is more accurately described as a potential mis-estimation of the cost avoidance.
We agree with management’s view and have removed the references to cost
misallocation.

Management also stated that the $2.1 million effect on cost-avoidance estimates that
resulted from varying the inputs by 5 percent does not arise primarily from the 0.01 cent




                                               4
First-Class and Standard Mail Presort Letter                                    MS-AR-10-003
 Workshare Discounts


change in the difference between unit costs for 3-digit and 5-digit letters, but from
applying the unit cost difference to 21 billion pieces.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s corrective actions
should resolve the issues identified in the report.
Concerning our sensitivity analysis, management correctly notes that our $2.1 million
effect on cost-avoidance estimates is small in the context of $4.1 billion of total avoided
costs. The small impact results from our assuming a small (5 percent) change in the
size of the inputs. Our point was not to assert that the models were significantly
inaccurate, but to note that small changes can affect the results by millions of dollars.

Management disagreed with recommendation 2, citing the difficulty of conducting the
study that we recommended. We believe such a study would be beneficial because
management does not have a full understanding of the volume of slim-jims nor their full
impact on the cost models. Although management disagreed with recommendation 2,
they are aware of the issue and are pursuing acceptable alternate solutions.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information please contact Robert Mitchell, director, Sales
and Service, or me at 703-248-2100.

    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Joseph Corbett
    Sally K. Haring




                                               5
First-Class and Standard Mail Presort Letter                                                        MS-AR-10-003
 Workshare Discounts


                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Worksharing is a partnership between the Postal Service and the mailing community
whereby mailers who reduce Postal Service costs by presorting, barcoding, and
transporting mail obtain discounted postage rates. According to the Postal Service and
the PRC, worksharing benefits the Postal Service, mailers, the mailing industry, and the
nation. The Postal Service credits workshare discounts with stimulating mail volume
growth, enabling it to streamline its workforce and infrastructure, reducing mailing costs,
and improving service.

Worksharing involves 80 percent of current mail volume, allowing the Postal Service to
avoid $14.8 billion in costs and provide $15 billion in discounts to mailers (see Table 1).
Combined, workshared Standard Mail and FCM saved the Postal Service $12 billion
(with $7.9 billion and $4.1 billion, respectively) and account for 81 percent of the total
cost avoided by worksharing.9

               Table 1. FY 2008 Worksharing Cost Avoidances and Discounts
                                       (In billions)

                                                    Cost
                                Class of Mail    Avoidance Discount
                             Standard Mail          $7.9        $8.3
                             FCM                     4.1         4.2
                             Periodicals             2.0         1.7
                             Package Services        0.8         0.8
                             Total                 $14.8        $15.0
                                      Source: NGI Solutions LLC

The Postal Service uses the term “cost avoidance” to mean the difference in cost
resulting only from the worksharing activity performed by mailers or their
representatives. Suppose, for example, that processing costs for two pieces of mail are
similar in all respects, but that one is presorted one level deeper than the other (e.g.,
one is presorted to the 3-digit level and the other to the 5-digit level). With all
characteristics the same except for the presort level, the avoided cost of the more
deeply workshared piece is the cost difference between the two pieces.10




9
    Economic Analysis of the Postal Service's Workshare Discounts, NGI Solutions LLC, October 14, 2009.
10
     Mail delivery costs include sorting, barcoding, and transporting.




                                                          6
First-Class and Standard Mail Presort Letter                                                              MS-AR-10-003
 Workshare Discounts


The Postal Act requires the PRC to ensure that workshare discounts do not exceed the
cost the Postal Service avoids as a result of workshare activity.11 However, the PRC
found that 30 discounts exceeded avoided costs in FY 2009. Seventeen of those
discounts were justified by exceptions allowed under the Postal Act, but 13 were not
and must be realigned in the next general market dominant price adjustment filing.12 We
plan to review this issue in a future audit.

The Postal Service uses cost models to develop workshare cost-avoidance estimates
that help determine workshare discounts. See Appendix C for a list of cost models.
These cost models have evolved over time and, depending on their complexity, can
have hundreds of recurring and non-recurring data inputs. The Postal Service updates
recurring data inputs annually; examples include cost data from accounting records,
wage rates, mail processing costs by shape, piggyback factors,13 and MODS data.14
While recurring data inputs are updated annually, the non-recurring data inputs are
generally updated when there are operational or productivity changes that affect the
models. Updating non-recurring data inputs generally requires additional fieldwork or
analysis.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the Postal Service bases FCM and Standard
Mail workshare discounts for presort letters on current cost inputs. To accomplish our
objective we:

        Reviewed laws, regulations, policies, and procedures related to workshare
         discounts for First-Class Presort and Standard Mail.

        Interviewed Postal Service officials to understand the history, rationale, and
         methodology (especially cost inputs) behind First-Class presort and Standard
         Mail workshare discounts.


11
   39 USC 3622(e)(2) requires that the PRC “shall ensure that [workshare] discounts do not exceed the cost that the
Postal Service avoids as a result of workshare activity,” unless (1) the discount is associated with a new postal
service and necessary to induce mailer behavior that furthers the economically efficient operation of the Postal
Service, (2) the amount of the discount above costs avoided is necessary to mitigate rate shock and will be phased
out over time, (3) the discount is provided in connection with subclasses of mail consisting exclusively of mail matter
of educational, cultural, scientific, or informational value, or (4) reduction or elimination of the discount would impede
the efficient operation of the Postal Service.
12
   PRC, Annual Compliance Determination of U.S. Postal Service Performance, March 29, 2010.
13
   Piggyback factors are employed in cost studies to augment labor cost estimates and add costs associated with
supervisors, administration, the facility, and equipment.
14
   To address concerns raised in the 2008 Annual Compliance Determination, the Postal Service proposed to replace
a MODS productivity that is no longer available with throughput data available from Carrier Sequence Bar Code
Sorter machine utilization reports. The new productivity would be calculated as the product of the throughput rate
(pieces per hour) multiplied by the machine runtime as a share of total work time. This modification addresses
concerns raised in the 2008 Annual Compliance Determination about the reliability of the MODS productivity data for
that operation, which had been used as an input to the letter worksharing cost avoidance models for First-Class and
Standard Mail. The PRC approved this methodology change.




                                                            7
First-Class and Standard Mail Presort Letter                                   MS-AR-10-003
 Workshare Discounts


       Determined how the Postal Service has historically determined the cost basis for
        and the amount of workshare discounts.

       Performed sensitivity testing (5 percent) on selected cost inputs to determine
        their effect on mail processing costs.

We conducted this performance audit from May 2009 through July 2010 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We relied on data contained
in the FCM and Standard Mail presort letter cost models. We did not audit the data.
However, we interviewed Postal Service officials knowledgeable about the data, and
determined it was sufficiently reliable for addressing the audit objectives and supporting
our findings and conclusions. We discussed our observations and conclusions with
management officials on April 28, 2010, and included their comments where
appropriate.




                                               8
     First-Class and Standard Mail Presort Letter                                              MS-AR-10-003
      Workshare Discounts


     PRIOR AUDIT COVERAGE

                                               Final
                        Report                Report
 Report Title           Number                 Date                           Report Results
Bound Printed       CRR-AR-08-005             5/9/2008       The Postal Service established Bound Printed
Matter                                                       Matter (BPM) workshare discounts in accordance
Workshare                                                    with postal legislation and internal policies and
Discounts                                                    procedures. At six large BPM acceptance facilities,
                                                             controls were in place to ensure mailers prepared
                                                             BPM to workshare standards. However, some of
                                                             the supporting documentation that management
                                                             used to develop the BPM discounts was old, which
                                                             could have affected the reliability of the BPM
                                                             workshare discount rates. Updating this data would
                                                             help establish more accurate information for
                                                             management to use to implement rate changes
                                                             and prepare annual reports for the PRC on the
                                                             impact of workshare discounts. Management
                                                             generally agreed with the findings and
                                                             recommendations, but did not agree that the data
                                                             supporting workshare discounts did not reflect the
                                                             current operating environment.
Management of       CRR-AR-10-002            3/19/2010       Controls over special studies are generally
Special Studies                                              adequate to comply with applicable regulations.
                                                             Management updates the studies with recurring
                                                             financial and operational information and
                                                             coordinates changes to the studies with the PRC.
                                                             However, improvements are needed to ensure the
                                                             studies are updated with non-recurring financial
                                                             and operational data. Additionally, we found that
                                                             24 data inputs into the Periodicals Destination
                                                             Entry Cost-Avoidance Model were developed in
                                                             the 1990s and may not represent current operating
                                                             conditions. The Postal Service should prioritize
                                                             updating the non-recurring data inputs considering,
                                                             among other things, the impact the data has on the
                                                             special study results and the cost of updating the
                                                             data. Management agreed with the findings and
                                                             recommendations, but stated that the presentation
                                                             of data in a table listing cost model special studies
                                                             could incorrectly lead readers to believe the
                                                             models have not been updated since they were
                                                             first introduced.




                                                         9
First-Class and Standard Mail Presort Letter                                   MS-AR-10-003
 Workshare Discounts


                              APPENDIX B: DETAILED ANALYSIS

Workshare Discounts

The presort letter cost models for FCM and Standard Mail contain inputs that may not
be representative of current operating conditions. Of the 288 inputs the models use, 13
were last updated prior to FY 2008. Six of the 13 have not been updated since 1995,
five more were last updated in 2000, and the other two were updated in 2005. The
Postal Service first developed the FCM and Standard Mail models in 1976 and 1984,
respectively, and has adjusted them over the years to account for changes in
automation and processes. However, the 13 inputs mentioned above were first
developed in field studies conducted in FYs 1995, 2000, or 2005 and have not been
routinely updated.

Of the six inputs not updated since 1995, four are manual incoming secondary
productivity values, one represents Post Office Box mail volumes and one relates to the
number of operations for non-automation presort bundle sorting. Of the five inputs last
updated in 2000, three are related to mail flow densities, one describes nonmachinable
accept rates, and one is the percentage of mail sorted at the plant to at least the carrier
route. The two inputs not updated since 2005 relate to the ability to sort mail by reading
barcodes. See Appendix D for a list of the 13 inputs.

To estimate how changes in the cost models for FCM and Standard Mail can affect
cost-avoidance estimates, we performed a sensitivity analysis on each of the 13 inputs
last updated prior to 2008. We varied each input by 5 percent and estimated that the
effect on processing costs ranged from no effect to an effect of approximately $2.1
million. In addition to the impact on cost-avoidance estimates, inaccurate data inputs
could also impact workshare discounts. See Appendix E for details of the sensitivity
analysis.

More accurate estimates for the data inputs would have to come from updated field
studies. In determining whether to update or conduct a study, the Postal Service should
consider whether updated data would significantly change the model and cost-
avoidance estimates. Also, the cost in terms of dollars and resources spent collecting
data should be considered to determine whether it is beneficial to update the study.

Identifying data inputs that may not represent current operations in each cost model and
collaborating with the PRC to prioritize updating them will help the Postal Service more
accurately determine cost-avoidance and workshare discount estimates.




                                               10
First-Class and Standard Mail Presort Letter                                                       MS-AR-10-003
 Workshare Discounts


                              APPENDIX C: LIST OF COST MODELS

Table 2 lists the cost models and the rate or classification case when the models were
first filed. The Postal Service uses cost models to develop workshare cost-avoidance
estimates. Cost models are generally not one-time studies, but rather models that have
evolved over time. The current cost models may not bear any resemblance to the cost
models that were originally introduced. For example, the FCM letters cost model dates
back as far as Docket R76-1; however, the model was reworked in the 1990s.

                                          Table 2. Cost Models

                            Models                                                    Docket First Filed15
First-Class Letters Cost Model                                                              R76-1
Standard Regular Letters Cost Model                                                         R84-1
First-Class Presort Flats Cost Model                                                        R94-1
Standard Regular Flats Cost Model                                                           R94-1
Periodicals Outside County Flats Cost Model                                                 R94-1
Standard Mail Hybrid/Parcel Cost Study                                                    R2006-1
Periodicals Destination Entry Cost Avoidance Model                                          R84-1
Standard Letters Destination Entry Cost Avoidance Model                                     R90-1
Standard Flats Destination Entry Cost Avoidance Model                                       R90-1
Bound Printed Matter Mail Processing Cost Model                                             R76-1
Media Mail: Mail Processing Cost Model                                                      R76-1
Bound Printed Matter Transportation Cost Model                                              R97-1
Bulk Parcel Return Service Cost Study                                                       R97-1
Enhanced Carrier Route Mail Processing Unit Costs                                         R2001-1
Qualified Business Reply Mail and Business Reply Mail Costs                               R2001-1
Bound Printed Matter Mail Processing Costs                                                R2001-1
Special Services (Public Portion)16                                                       R2006-1
Delinked FCM Workshare Estimates                                                          R2006-1




15
   Refers to the years the models were introduced, not necessarily when they were last updated. For example, R76-1
was filed in 1976.
16
   Special Services includes cost models for a variety of services, such as Delivery Confirmation, Signature
Confirmation, and Restricted Delivery.




                                                        11
First-Class and Standard Mail Presort Letter                                                            MS-AR-10-003
 Workshare Discounts


                     APPENDIX D: FCM AND STANDARD MAIL PRESORT
                             LETTER COST MODEL INPUTS

Table 3 lists the inputs into the FCM and Standard Mail presort letter cost models last
updated prior to FY 2008. The source is the PRC docket where the data input was
introduced.

                             Table 3. List of Model Inputs and Sources

                                            Input                                          Source17
               Productivities
         1     Manual Incoming Secondary Non-MODS Sites                            Docket No. MC95-1
         2     Post Office (P.O.) Box Sort DPS                                     Docket No. MC95-1
         3     P.O. Box Sort Other                                                 Docket No. MC95-1
         4     Tray Opening Unit Bundle Sorting                                    Docket No. MC95-1
               Miscellaneous Factors
         5     Remote Bar Code System leakage rate                                 FY 05 RBCS Data
         6     Remote Computer Read finalization rate                              FY 05 RBCS Data
         7     Finalized at least to carrier route at plant                        Docket No. R2000-1
         8     Post Office Box destination                                         Docket No. MC95-1
         9     Nonmachinable single-piece letters % accept18                       Docket No. R2000-1
               Mail Flow Densities
        10     Out Prim Man                                                        Docket No. R2000-1
        11     Out Sec Man                                                         Docket No. R2000-1
        12     Inc Area Distribution Center Man                                    Docket No. R2000-1
               Bundle Sorting Costs
        13     No. of Operations19                                                 Docket No. MC95-1




17
   The docket number refers to the year the docket was opened. For example, Docket No. MC95-1 was opened in
1995. “FY 05 RBCS Data” refers to a field study conducted in 1995.
18
   This acceptance rate is not based on data. It is the result of an agreement to accept a figure that was presented, by
assumption, by the Office of the Consumer Advocate.
19
   Although included in the letter cost models, Number of Operations does not affect any cost-avoidance figure.




                                                          12
First-Class and Standard Mail Presort Letter                                       MS-AR-10-003
 Workshare Discounts


                    APPENDIX E: SENSITIVITY ANALYSIS OF FCM AND
                        STANDARD MAIL COST MODEL INPUTS

To demonstrate how changes to the inputs can affect cost-avoidance estimates, we
performed a sensitivity analysis on each of the 13 inputs the Postal Service last updated
prior to FY 2008. We varied each input by 5 percent and calculated the effect each
change had on the avoided cost for each successive presort level. The impact ranged
from no effect for certain inputs to approximately $2.1 million for the Post Office Box
Destination input. Because it was unlikely that the 13 data inputs would uniformly
increase or decrease by 5 percent, we did not calculate a total impact.

When we decreased the P.O. Box Destination input by 5 percent, the avoided cost
between automation 3-digit and automation 5-digit changed from 2.348 cents to 2.358
cents for First-Class letters. We obtained cost-per-piece estimates from the FY 2009
FCM letter cost model.

               Table 4. Difference in Avoided Cost Among Presort Levels

                             Processing Cost           Processing Cost
                               Estimate for              Estimate for
                            Automation 3-digit        Automation 5-digit     Avoided Cost
                              Letters (cents)           Letters (cents)        (cents)
Before Varying                     6.675                     4.327              2.348
After 5 Percent
                                     6.679                  4.321                2.358
Decrease
Difference in
                                                                                 0.010
Avoided Cost

To estimate the potential impact on cost avoidance estimates, we multiplied the
difference in avoided cost between automation 3-digit and automation 5-digit letters by
the FY 2009 FCM automation 5-digit letter volume. We obtained letter volume from the
FY 2009 FCM letter cost model.

                        Table 5. Impact on Cost-Avoidance Estimates

              Difference in Avoided                                    Total Avoided
                  Cost (dollars)                       Volume          Cost (dollars)
                      0.0001                          21,118,188,509    2,111,818.85

Of the 13 inputs, the Post Office Box Destination input has the greatest impact on cost-
avoidance estimates. Over a 2-year period the potential impact on cost avoidance
estimates is $4.2 million.




                                                 13
First-Class and Standard Mail Presort Letter                 MS-AR-10-003
 Workshare Discounts


                         APPENDIX F: MANAGEMENT’S COMMENTS




                                               14
First-Class and Standard Mail Presort Letter        MS-AR-10-003
 Workshare Discounts




                                               15
First-Class and Standard Mail Presort Letter        MS-AR-10-003
 Workshare Discounts




                                               16
